No. 20A6
IN THE SUPREME COURT OF THE UNITED STATES
_________________
EARLENE PETERSON, KIMMA GUREL AND MONICA VEILLETTE,
APPLICANTS
v.
WILLIAM P. BARR, ATTORNEY GENERAL, ET AL.
(CAPITAL CASE)
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the RESPONSE TO EMERGENCY APPLICATION TO STAY THE MANDATE AND
VACATE THE DECISION OF THE COURT OF APPEAL FOR THE SEVENTH
CIRCUIT, via e-mail and first class mail, this 13th day of July 2020.
[See Attached Service List]
Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
July 13, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

SERVICE LIST: 20A-BARR V. PETERSON, ET AL.
Howard Baker Kurrus
H. Baker Kurrus, PLLC
10816 Crestdale Lane
Little Rock, AR 72212
501-831-0325
bkurrus@aol.com
Matthew M. Collette
Massey & Gail LLP
1000 Maine Avenue, SW, Suite 450
Washington, DC 20024
202-795-3326
mcollette@masseygail.com

